Department of Homeland Security
   Ofﬁce of Inspector General

    Improving FEMA's Disaster Purchase Card Program 





OIG-10-91                                       May 2010
                                                           Office ofInspector General

                                                           u.s.Department of Homeland Security
                                                           Washington, DC 20528




                                                           Homeland
                                                           Security
                                     MAY 2 7 2010

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the results of the audit of the Federal Emergency Management
Agency's (FEMA) disaster purchase card program. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents. We performed the audit according to generally accepted
government auditing standards. The report contains four recommendations for improving
FEMA's disaster purchase card program.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation.
Where appropriate, we plan to refer cardholders responsible for improper purchases to
FEMA management for possible administrative action. We trust this report will result in
more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.

                                    £~C;(.~
                                     Richard L. Skinner
                                     Inspector General
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................5 


    Improving Disaster Purchase Card Guidance .................................................................5 

    Recommendation ............................................................................................................7 

    Management Comments and OIG Analysis ...................................................................7 


    Strengthening Disaster Purchase Card Internal Controls................................................8 

    Recommendations.........................................................................................................11

    Management Comments and OIG Analysis .................................................................12 


    Addressing GSA SmartPay®2 and CCTMS Issues.......................................................12 

    Recommendation ..........................................................................................................13

    Management Comments and OIG Analysis .................................................................13 



Appendixes
     Appendix A: Purpose, Scope, and Methodology.........................................................14 

     Appendix B: Management Comments to the Draft Report .........................................15 

     Appendix C: Disaster Purchase Card Process Diagram ..............................................18 

     Appendix D: FEMA Regional Offices ........................................................................19 

     Appendix E: Case Studies............................................................................................20 

     Appendix F: Major Contributors to This Report .........................................................21 

     Appendix G: Report Distribution.................................................................................22 


Abbreviations
     AO                  Approving Official           

     CCTMS               Credit Card Transaction Management System
 

     DHS                 Department of Homeland Security 

     DISC                Disaster Information Systems Clearinghouse 

     FEMA                Federal Emergency Management Agency 

     GAO                 Government Accountability Office 

     GPS                 global positioning system 

     GSA                 General Services Administration 

     MCC                 Merchant Category Codes 

     OIG                 Office of Inspector General 

     SOP                 Standard Operating Procedure 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
           The Federal Emergency Management Agency has improved its internal
           controls for the disaster purchase card program and addressed a number of
           prior audit recommendations. For example, cardholders have met initial
           purchase card training requirements, the span of control for approving
           officials is reasonable, and the results of monthly postpayment audits are
           being acted upon. However, internal control issues remain, and we
           identified more than $247,100 of improper purchases.

           The Federal Emergency Management Agency can improve its disaster
           purchase card program and related internal controls by:

                  �	 Consolidating, updating, and more effectively communicating
                     policies and procedures;

                  �	 Taking better advantage of preventive controls to minimize risk
                     exposure;

                  �	 Working with the Department of Homeland Security and JP
                     Morgan Chase to ensure that states and merchants do not tax
                     purchases at the point of sale;

                  �	 Establishing a multifaceted, strategic approach to monitoring
                     and oversight; and

                  �	 Resolving issues with its transition to the General Services
                     Administration SmartPay®2 and the Credit Card Transaction
                     Management System.

           With proper controls in place, the Federal Emergency Management
           Agency will be in a position to (1) develop a stronger strategy on
           appropriate use and application of disaster purchase cards, and
           (2) maximize efficiencies and potential rebates.




                   Improving FEMA’s Disaster Purchase Card Program 


                                        Page 1 

Background
                           The Federal Emergency Management Agency (FEMA) purchase
                           card is a centrally billed government charge card used to pay for
                           goods and services in support of official government business. It
                           streamlines traditional federal procurement and payment
                           processes by eliminating the need for numerous purchase orders
                           and payments. When well controlled, it provides FEMA with a
                           flexible and efficient way of quickly obtaining commercial goods
                           and services through over-the-counter purchases, phone orders,
                           mail/catalog orders, and Internet purchases.

                           To improve accountability and oversight, FEMA has different
                           purchase cards for regular operations and emergency disaster
                           response activities. Disaster purchase cards can be used only for
                           disaster needs, using disaster funding, and are the preferred
                           method to pay for disaster-related micro-purchases.1 Figure 1 is
                           an example of a disaster purchase card.

                           Figure 1. Disaster Purchase Card




                                   12345 - DISASTER


                           Source: OIG. 





1
  The micro-purchase limit is $3,000, but certain exceptions apply: (1) construction greater than $2,000
is subject to the Davis-Bacon Act; (2) services greater than $2,500 are subject to the Service Contract
Act; and (3) under the Stafford Act or emergencies, the Department of Homeland Security’s Chief
Procurement Officer may authorize heads of the contracting activities to increase the micro-purchase
thresholds for emergency procurements.



                           Improving FEMA’s Disaster Purchase Card Program

                                                 Page 2
The FEMA Organization Program Coordinator, located within
the FEMA Management Directorate, Acquisition Management
Division, manages the FEMA disaster purchase card program
and investigates questionable or inappropriate cardholder
transactions. Approving Officials (AOs) provide approval,
validation, oversight, and monitoring of purchase card activity
within their span of control. Cardholders verify that funds are
available prior to making each purchase with their card; make
purchases with their card; notify local property officers of
acquired accountable property; and reconcile and maintain all
required transaction documentation. Appendix C illustrates
FEMA’s business process for carrying out the disaster purchase
card program.

Most AOs are located at FEMA regional offices and usually do
not deploy to disaster operations field offices. Cardholders,
although assigned to FEMA regional offices, typically travel to
disaster field offices throughout the country as needed. When
deployed, cardholders commonly report to and receive
performance appraisals from supervisors who are not their AOs.
However, cardholders’ purchases are still approved by their AOs,
who often are not at the disaster site. See Appendix D for the
locations of FEMA regional offices and the number of disaster
purchase cardholders in each region.

Between October 2007 and June 2009, FEMA’s 280 disaster
purchase cardholders spent more than $14.1 million. Office
supplies, including printer cartridges, were the most commonly
purchased items. Figure 2 shows disaster purchase card
spending from October 2003 through June 2009.




Improving FEMA’s Disaster Purchase Card Program 


                    Page 3 

                            Figure 2. FEMA Disaster Purchase Card Spending
                                                         Fiscal Year 2004 Through June 2009
                                $40.0

                                 35.0

                            M    30.0
                            i
                            l
                                 25.0
                            l
                            i
                                 20.0
                            o
                            n
                            s    15.0

                                 10.0

                                 5.0

                                 0.0
                                    2004          2005           2006           2007       2008      2009

                                                                  Fiscal Year

                            Source: OIG analysis of FEMA and U.S. Bank data.2



                            In June 2009, the FEMA disaster purchase card program
                            transitioned to a new service provider under the General Services
                            Administration (GSA) SmartPay®2 purchase card program. The
                            GSA SmartPay®2 program provides charge cards to U.S.
                            government agencies through master contracts that are negotiated
                            with major national banks. JP Morgan Chase is the service
                            provider for the Department of Homeland Security (DHS)
                            Purchase Card Program, of which the FEMA disaster purchase
                            card program is a part.




2
    Until June 2009, U.S. Bank was the service provider for FEMA’s disaster purchase card program.



                            Improving FEMA’s Disaster Purchase Card Program

                                                  Page 4
Results of Audit
     Improving Disaster Purchase Card Guidance
          The FEMA Organization Program Coordinator is responsible for
          establishing disaster purchase card policies and procedures consistent
          with departmental policy. However, some regional offices and other
          FEMA activities have implemented their own guidance. This has
          resulted in a proliferation of conflicting and outdated guidance. For
          example, the FEMA Disaster Plan for Purchase Card Usage and FEMA
          Disaster Contracting Desk Guide provide different “standard operating
          procedures.” The FEMA Disaster Plan for Purchase Card Usage
          outlines specific procedures for the use of purchase cards during the
          operations phase and assistance phase of a disaster, whereas the FEMA
          Disaster Contracting Desk Guide makes no distinction between the
          phases. Figure 3 summarizes the stated purposes of the two documents
          and key differences.

           Figure 3. Example of Different Standard Operating Procedures

           FEMA Disaster Plan for                    FEMA Disaster Contracting Desk Guide
           Purchase Card Usage
           “…This Standard Operating Procedure       “…provides Standard Operating Procedures
           (SOP) guidance establishes the            (SOP) regarding the acquisition of supplies,
           Department of Homeland Security           services, and equipment in support of declared
           policy for …use of the Government         disasters…The section on the Government
           Purchase Card in response to or           purchase card covers the unique requirements
           recovery from a disaster…This SOP         relative to purchasing services and supplies at
           applies to all FEMA employees…”           a disaster with the card…is applicable to all…”

           “…During the disaster operations phase    “…The purchase card purchase process is
           the following steps are taken…During      similar to the acquisition process…”
           the Disaster Assistance Phase the
           following steps are taken…”

           “…Ensure written approval and             “…Receive 60-1(s) [Requisition for Supplies,
           Certification Form (Appendix A) is        Equipment, and/or Services] from Logistics for
           obtained from the designated on-site      Purchase(s)…”
           Comptroller in a timely manner prior to
           making purchases…”

           Source: FEMA.

          Figure 4 highlights some similarities and differences in FEMA disaster
          purchase card guidance.




                  Improving FEMA’s Disaster Purchase Card Program 


                                        Page 5
 

    Figure 4. FEMA Disaster Purchase Card Guidance Comparison

                                              FEMA            FEMA              FEMA          FEMA
                                              Disaster        Disaster          Emergency     REGION VI
                                              Plan for        Contracting       Acquisition   Disaster
                                              Purchase        Desk Guide        Field         Logistics
                                              Card            (05/2009)         Guide         Ordering
                                              Usage                             (09/2007)     Unit SOP
                                              (12/2007)                                       (06/2009)

     Applies to all disaster cardholders.           �              �

     Lists distinct procedures for the              �
     disaster operations phase and the
     disaster assistance phase.

     Names the Comptroller as the on-               �
     site authorizing official.

     Identifies specific prohibited                 �                               �
     charges.

     Requires use of the Comptroller                �
     Certification Form.

     Requires a minimum of three quotes             �
     be sought and documented.3

     Requires that a warranted contract             �
     specialist document and justify sole
     source selections.

     Requires a waiver for the purchase                            �                             �
     of bottled water.

     Requires a written waiver for                                 �                             �
     disaster information systems from
     the Disaster Information Systems
     Clearinghouse.

     Requires that original receipts and            �                               �
     support be maintained for 6.3 years.

    Source: OIG analysis of FEMA disaster purchase card guidance.
 


3
 According to Federal Acquisition Regulation Subpart 13.202, micro-purchases may be awarded without
soliciting competitive quotations if the price is considered reasonable.



                            Improving FEMA’s Disaster Purchase Card Program 


                                                  Page 6
 

There are gaps in the guidance as well. For example, neither the FEMA
Disaster Plan for Purchase Card Usage nor FEMA Disaster
Contracting Desk Guide clearly identifies how cardholders should
handle store credits. Cardholders generally do not have a choice
whether their card is credited or a store credit is issued. Merchants can
choose to give cardholders a store credit when purchased items are
returned or exchanged, paid orders are subsequently canceled, or
overcharges are refunded. Between October 2007 and June 2009,
FEMA canceled more than $6,900 of disaster card purchases. FEMA
needs to establish clear and consistent guidance regarding store credits.

Several cardholders told us that they would like to see clearer and more
concise guidance. A cardholder with extensive disaster experience said
that each FEMA region does things differently. When there are multiple
sources of written guidance, cardholders can become confused as to
which procedures they should follow and what constitutes an eligible
purchase. Eighteen cardholders and AOs told us that they usually go to
their colleagues or the FEMA Organization Program Coordinator for
guidance, and a number of cardholders identified confusing guidance as
an area needing improvement.


Recommendation
       We recommend that the Federal Emergency Management
       Agency Organization Program Coordinator, in coordination with
       acquisition staff at Federal Emergency Management Agency
       headquarters and regional offices:

       Recommendation #1: Consolidate, update, and more
       effectively communicate Federal Emergency Management
       Agency disaster purchase card program guidance. The guidance
       should be timely and address known gaps. There should only be
       one set of guidance for the Federal Emergency Management
       Agency disaster purchase card program.


Management Comments and OIG Analysis
       FEMA concurred with the recommendation and said it is
       eradicating conflicting guidance and addressing known gaps
       within a single consolidated set of guidance. The anticipated
       date of completion is December 31, 2010. We consider FEMA’s
       current actions responsive to the recommendation.



       Improving FEMA’s Disaster Purchase Card Program

                           Page 7
        Strengthening Disaster Purchase Card Internal Controls
                FEMA has improved its internal controls and addressed a number of
                prior audit recommendations.4 Senior leadership has clearly
                communicated its commitment to establishing a necessary level of
                financial stewardship and program accountability within FEMA. For
                example, in July 2009, the FEMA Administrator established an Internal
                Control Board of senior leadership to assess and govern internal controls
                across the organization, and to identify and implement improvements on
                a continuous basis. With respect to the disaster purchase card program,
                FEMA has ensured that:

                    �	 Cardholders have met initial purchase card training requirements;

                    �	 The span of control for approving officials is reasonable;

                    �	 Results of monthly postpayment audits are being acted upon;

                    �	 Purchase cards to be used only for disaster needs are specifically
                       and clearly marked; and

                    �	 Disaster cards have appropriate per-purchase and monthly
                       purchase limits.

                FEMA also blocks purchases from merchants coded in certain categories
                using Merchant Category Codes (MCC). However, this action does not
                restrict what is purchased from merchants who have not identified
                themselves with the blocked MCCs. For example, disaster purchase
                cards may not be used to make purchases at businesses categorized as
                providing money orders, a prohibited item; however, they may be used
                at grocery stores that sell money orders.

                To help address this gap, FEMA needs to use specialized reports of
                cardholder activity more effectively and develop a strategy for reviewing
                reports (i.e., who, what, and when). These reports are very useful for
                identifying, analyzing, and documenting problem areas. They can also
                be used to reveal trends in disaster purchase card use. Electronic reports
                make fraud or misuse far easier to detect than paper-based reports.
                When used proactively, the information can help FEMA (1) prevent

4
 Internal Controls in the FEMA Disaster Acquisition Process, (OIG-09-32, February 2009) and
Purchase Cards: Control Weaknesses Leave DHS Highly Vulnerable to Fraudulent, Improper, and
Abusive Activity, (GAO-06-1117, September 2006).



                        Improving FEMA’s Disaster Purchase Card Program

                                             Page 8
fraud, waste, and abuse; and (2) identify potential strategic sourcing
opportunities.

FEMA can further strengthen its controls through the use of data mining.
Data mining is extracting useful information from a database using
artificial intelligence and neural networks. Model patterns of purchase
card misuse and fraud can be programmed into systems that
automatically monitor cardholder activity for similar patterns. In order
to develop accurate models, the patterns of cardholder misuse and fraud
must be well documented and understood.

With more effective internal controls, FEMA could have prevented more
than $247,100 of improper purchases or detected them more quickly.
An improper purchase is any purchase that should not have been made
or that was made in an incorrect amount under statutory, contractual, or
administrative requirements. An improper purchase can be incorrect,
unauthorized, or fraudulent.

Incorrect purchases are mistakes caused by an unintentional error during
the purchase process. For instance, when a purchase cardholder is asked
to buy one type of printer but inadvertently purchases a different type, this
is an incorrect purchase. Duplicate purchases and purchases for incorrect
amounts, if made in error, are also examples of incorrect purchases. A
series of ostensibly incorrect purchases may require investigation to
determine whether they are actually unauthorized purchases.

Unauthorized purchases are items that are intentionally purchased
outside of the cardholder’s purchasing authority. Examples include
purchases intentionally made (a) on the same day from the same vendor
to circumvent cardholder single transaction limits; (b) for ineligible
recipients; (c) for ineligible services; or (d) in the absence of available
funding.

Fraudulent purchases include those that were unauthorized and intended
for personal use; made using government charge cards or account
numbers that had been compromised; and correctly charged to the
charge card but that involve potentially fraudulent activity. For instance,
using a government charge card to purchase a gift card for personal use
is a fraudulent purchase.

If FEMA had more effective internal controls, the following improper
purchases could have either been prevented or detected more quickly:




       Improving FEMA’s Disaster Purchase Card Program 


                           Page 9 

   �	 More than $5,800 of questionable and prohibited charges made
      by three different cardholders in two different FEMA regions.
      Had the FEMA Organization Program Coordinator used
      specialized reporting tools effectively, these purchases would
      have been quickly identified. The charges included two gift
      cards totaling $4,318; a 3-year 24/7 hardware maintenance
      agreement for $463; and 19 ceramic heaters, a personal
      convenience item, for $1,098. See Appendix E for case studies.

   �	 At least $78,000 in split purchases by three cardholders in one
      FEMA region. Items purchased included umbrellas, tents,
      telephones, and office supplies. All three cardholders should
      have forwarded the actions to warranted contract specialists
      rather than breaking up the requirements so that they were below
      the single purchase limit established for each cardholder. By
      acting as they did, these cardholders exceeded their authority and
      violated federal acquisition regulations.

   �	 More than $158,600 of purchases, by 26 cardholders, using funds
      designated for other purposes. For example, cardholders bought
      more than $20,400 of software, printers, facsimile machines,
      copiers, and scanners using funds designated for other
      commodities. By not using the correct categories of funds, these
      cardholders made it difficult for FEMA to know where money
      was actually needed and for what types of goods or services.
      Also, they increased FEMA’s risk of making expenditures in
      excess of available funds and having unliquidated obligations
      that could be used for other needs.

   �	 More than $2,800 of purchases that appeared to have been made
      by individuals other than the cardholders. This includes
      someone other than the cardholder signing the credit card receipt
      for a purchase. DHS and FEMA policies prohibit this, since
      procurement authority is granted only to the individual to whom
      the card has been issued. More effective cardholder training
      might have prevented this from occurring. Better oversight by
      the AOs should have detected it.

With respect to purchases with incorrect amounts, more than $1,900 was
charged for sales tax. Transactions against federal government accounts,
directly paid by the government, are exempt from state and local taxes.
Under the terms of the GSA SmartPay®2 Master Contract, JP Morgan
Chase is to work with state governments and merchants to ensure that
states and merchants do not tax these transactions at the point of sale.



       Improving FEMA’s Disaster Purchase Card Program 


                           Page 10 

Additionally, JP Morgan Chase is to assist the government in the
resolution of any other tax exemption issues that arise, as well as contact
merchants at the government’s request regarding tax exemption.

There was insufficient documentation that key purchase card internal
controls were performed involving more than $47,400 of accountable
property. To avoid excess inventory or purchases of items that do not
meet standard specifications, purchases of the following items must be
approved in advance by the Disaster Information Systems Clearinghouse
(DISC): facsimile machines; four-in-one office machines
(print/fax/copy/scan); laptops; digital cameras; hubs; modems; and GPS
units (global positioning system/navigational use). DISC approval should
be in writing and included in a cardholder’s backup documentation.
Twelve cardholders did not have such documentation for purchases in this
category.

Fraud, waste, and abuse of federal funds is a serious offense. According
to the DHS Purchase Card Manual, “Abuse and/or fraud will result in
immediate cancellation of the employee’s purchase card. In addition, the
CH [cardholder] may be subject to disciplinary action up to and
including termination of employment. An employee also may be
personally liable to the Government for the amount of any unauthorized
transaction and may be subject to criminal prosecution….” Cardholders
and AOs need to be mindful of the consequences for inappropriate or
negligent behavior. Effective periodic training, coupled with swift
action against violators, should help deter cardholders from making, and
AOs from allowing, improper purchases.


Recommendations
       We recommend that the Federal Emergency Management
       Agency Organization Program Coordinator:

       Recommendation #2: Establish a multifaceted, strategic
       approach to monitoring and oversight. This includes (a) providing
       more effective training to cardholders and approving officials;
       (b) taking better advantage of preventive controls and data mining
       to minimize risk exposure; (c) developing and implementing a
       strategy for using specialized reports of cardholder activity; and
       (d) taking swift action against cardholders and approving officials
       for inappropriate or negligent behavior.




       Improving FEMA’s Disaster Purchase Card Program

                           Page 11
                           Recommendation #3: Continue to work with the Department of
                           Homeland Security and JP Morgan Chase to ensure that states
                           and merchants do not tax purchases at the point of sale.


                  Management Comments and OIG Analysis
                           FEMA generally concurred with the recommendations. With
                           respect to recommendation #2, FEMA said it would take
                           advantage of the robust monitoring tools available under the
                           General Services Administration SmartPay®2 program. With
                           respect to recommendation #3, FEMA said it would work with
                           the Department of Homeland Security and the purchase card
                           bank to ensure that States and merchants do not tax purchases at
                           the point of sale. We consider FEMA’s planned actions
                           responsive to the recommendation.


         Addressing GSA SmartPay®2 and CCTMS Issues
                  Since transitioning to GSA SmartPay®2 in June 2009, FEMA
                  cardholders and AOs have had difficulty using their new accounts.
                  Reported problems include authorized users not being able to log into
                  the bank’s Electronic Access System, view accounts or statements, and
                  review or certify transactions. FEMA officials also identified the bank’s
                  customer service as needing improvement. Most troubling, the FEMA
                  Organization Program Coordinator asserts that JP Morgan Chase had
                  assigned a number of cardholders to the wrong AOs, resulting in
                  unauthorized individuals being able to certify cardholder statements.

                  Issues with FEMA’s Credit Card Transaction Management System
                  (CCTMS)5 also plagued cardholders. Examples include cardholders not
                  being able to access the system; critical report functions that stopped
                  working; reports with incorrect data; duplicate transactions; and
                  incorrect rejection or suspension of transactions. According to FEMA
                  Finance Center officials, the contractor responsible for sustaining and
                  improving the system is behind schedule in addressing these and other
                  issues. Since May 2009, critical maintenance releases have not been
                  deployed into production, and workarounds are needed to make the
                  system work properly. However, while FEMA staff identified these


5
 CCTMS is a custom-built, web-based application that FEMA’s cardholders are required to use for
(1) allocating expenses to the appropriate lines of accounting, and (2) entering descriptive information
about their transactions into a purchase log.



                           Improving FEMA’s Disaster Purchase Card Program

                                                 Page 12
problems to us, the responsible contracting officer stated that she had not
been made aware of any performance issues.

FEMA, in partnership with its contractors and DHS, needs to identify
the root causes of these issues and resolve them. Effective information
technology management is vital to achieving useful, reliable, and
continuous recording and communication of information. According to
the Standards for Internal Control in the Federal Government
(GAO/AIMD-00-21.3.1, November 1999), “Information should be
recorded and communicated to management and others within the entity
who need it and in a form and within a time frame that enables them to
carry out their internal control and other responsibilities.”


Recommendation
       We recommend that the Federal Emergency Management
       Agency Associate Administrator, Mission Support:

       Recommendation #4: Facilitate efforts to resolve issues with
       Federal Emergency Management Agency’s transition to the
       General Services Administration SmartPay®2 program and the
       Credit Card Transaction Management System.


Management Comments and OIG Analysis
       FEMA generally concurred with the recommendation and said it
       is working with its partners to resolve the issues. With respect to
       the Credit Card Transaction Management System, FEMA said
       that a root cause analysis has been completed and corrective
       actions are underway. We consider FEMA’s current and planned
       actions responsive to the recommendation.




       Improving FEMA’s Disaster Purchase Card Program 


                           Page 13 

Appendix A
Purpose, Scope, and Methodology

            Our objective was to determine whether FEMA has adequate internal
            controls in place to deter and detect fraud, waste, and abuse in its disaster
            purchase card program. We assessed whether guidance was consistent,
            complete, accurate, and accessible; cardholders made proper purchases;
            and funding was properly obligated and deobligated.

            Based on our assessment of risks, we judgmentally selected 756
            transactions for detailed review. These transactions, totaling about
            $506,100, occurred between October 2007 and June 2009. Factors we
            considered in making our selections included merchant category code
            blocks; frequency of certain transactions; sales tax paid; transactions
            associated with lost, stolen, or compromised cards; and historical
            knowledge and experience.

            FEMA was not readily able to provide cardholder backup documentation
            for 46 transactions totaling about $24,100. Missing documentation
            included approved requisition and funding documents, sales slips, and
            receiving reports.

            We performed the audit at FEMA headquarters and facilities located in
            Denver, CO; Washington, DC; Atlanta, GA; Philadelphia, PA; Denton,
            TX; Texas City, TX; and Berryville, VA. We interviewed 51 FEMA
            disaster purchase card Approving Officials and cardholders, the FEMA
            Organization Program Coordinator, and other responsible officials. We
            reviewed applicable laws and regulations and prior audit reports. We
            analyzed disaster purchase card guidance, bank transaction data,
            cardholder backup documentation, and FEMA Organization Program
            Coordinator postpayment audit records. We validated the reliability of
            data by comparing them with source documents such as sales receipts, and
            we believe, within the scope of this audit, that we can reasonably rely on
            the data.

            We conducted this performance audit between June and December 2009 in
            accordance with generally accepted government auditing standards.
            Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.




                    Improving FEMA’s Disaster Purchase Card Program 


                                        Page 14 

Appendix B
Management Comments to the Draft Report



                                                                                 I _~. r.. p,""'<'"      "f """'<b"d S«uri'~'
                                                                                 ~OO   C' S,,,"rt. S\\
                                                                                 "",,,'~"". Ill-lO";l




                                             MAY 1    11O~




         MEMORANDUM FOR:                Malt Jadacki
                                        [h;puly InSJX-'Ctur Gcnerdl
                                        Office ofEmcrgellcy Managtmlent Oversight
                                        Office uf lnsp<.'<,:.t.\.'f G~ncral
                                          :<d-\c "j;(t'"<.-.-           Fi--
         FROM:                          David J. Kaufman
                                        Dir~"Ctor
                                        Office ofPoliey and Program Anulysis

         SL;BJECT'                      Comments on OIG Druft Repon.!mpl",,,·illg FEMA's
                                        DiSC/slcr Pllrchwi(' C,ml PJ"ogrmll

         Thank you for the opportunity 10 review amI ,-"{)mment un the Office of Inspector
         Gen",.al's (OIG's) subj'-'Ct draft audit report. As the Fcdeml Emergency Management
         Agency (FEMA) works toward refining its progr:UllS. the OIG's independent amllysis of
         progmm perfonnancc greatly b<:nefits our ability to continuously improve our activltics.
         Technical comments have been provided under separate oovu,

         FEMA ooneurs with the dmft report's four recommendations. While we will b<:
         providing enTreetivl': action plans in our 91l-du)' re~pon.~e, we pnll'ide the following
         infortnation relative to the four reoommendations:

         Recommendation 111; Consolidate. update, and more effectively communicale Federal
         Emergency Management Agc"c>, disaster purcha,'e card !,'llitlance. The .\,'llidance shol.lld
         be timely and address known gaps. Therc should only be one sel of guidance for the
         Fedcral Emcrgcnc>' ManagemCllt disaster purchase card pro.\,'TlIm.

         Response: FEMA concurs with thc rcc\Hl1IncnJati\ll1 to eonsoliJale, update, and more
         effectively cUlOJllunicatc disastcr purchase earJ guid'lllce. As a result uf uJditiollal
         support 10 the ?urehasc Card rwgram, efforts to emdicatc conflicting guidance a.' well as
         address known gaps within a single oonsolidated set of guidance can be implcmented
         more quickly. The anticipated datc of completion is December 31. 2010.




                           Improving FEMA’s Disaster Purchase Card Program 


                                                        Page 15
 

Appendix B
Management Comments to the Draft Report




         Page 2

         Recommendation #2: Establish a Illultifacctcd, stratcgic approach to monilOring and
         oversight. This includes (a) providing more clTt:t:ti"e training to cardholders and
         approving officials: (b) taking better advantage of preventive controls and data mining to
         minimize risk exposure; (c) developing and implementing a strategy for using specialized
         reports of cardholder m;tivity; amI (d) taking swift action against cardholders and
         approving officials for inapp....'pr;at<;: or ucgligcnt b<:l1a"ior.

         Response: FEMA Cllncu!'S in principal with thc recommcudation to establish a
         multifaccted. strategic apprweh to monitoring and conducting oversight functions in
         order to: (a) pro\'ide more effcctivc training, (b) use data mining tools to minimize risk
         of abuse ofthc purchase Cltrd, (c) otherwise monitor card usc, and (d) take swift action
         against those who ;'iolatc policy and card usc. FEMA will take advantage of the robust
         tools made available through GSA Smartl'ay2.

         Reeommendslion #3: Continue to work with the DepartmCtlt of Homeland Security and
         11' Morgan Chase to ensure that states and merchanl~ do not tax purchases at the point of
         sale.

         Response: FEMA concurs with the recommendation and will work with the I)cpartmCtlt
         ofHomc1and Security (OHS) aUll the purehasc card bank to cnsure that statcs ami
         merchants do not tax purchasl:s at the point of sale. FEMA has infonne<1 purchasc
         cardholdcrs on numcrous oecasiol1s tl1m thcir purchases should oot he taxed and to
         conlllctthe Office of the Chicf Procurement Offieer if a merchant imposes an
         unauthori7ed tlU. This will also be addre~SI;t.l in the gui<.lanec discussed ullder
         Recommctldation #1 above.

         Reconlmcndat!on #4: Facilitate e!Torts to rcwlvc issu~"S with F~'Ilcral Emergency
         Management AgCtlcy's transition 10 the General Scrvic(;S Administration Smortl'ay2
         program amI the Credit Card Trans,1etion Management System

         Response: FEMA crmeurs with this recommcndaliun. FEMA will t:olllillue to partner
         with OHS to resolve issues with FEMA's transition to the SmartPay 2 Program with JP
         Morgan Chase. With [C.,peetto FEMA 's Cr~'dit Card Tronsaction Managemcnt System
         (CCTMS), a collaborative team eITort by multiple FEMA OCFO pcrsonnel and
         contractors has resulted in new business proecsscs aod reporting to correct functional
         issues in CCTMS. and espand the visibility ofthc contractor's performance to all
         eonccm~'Il parties. In February/March 2010. the contractor perfonned an extensive root
         cause analysis ofthc syst~,n, which resultell in some fixCl; to reports and cxpamiL'd
         several other ctld·user reports to the quartcrly release. which had not becn Cllmplct~'Il
         from March 2009. The quancrly relcase j\1.~t completed the User Aecept:lTlce Testing
         (UAT) phasc with a 671330/. pass/fail rate. Other data has been provided to the OCFO
         financial staff to analy,o:e in order to address and fix other issues or look at possible
         workaroumls. The root cause allaly~is identified other issues, which arc in the




                           Improving FEMA’s Disaster Purchase Card Program 


                                                       Page 16
 

Appendix B
Management Comments to the Draft Report




         Page 3

         design/review stage and are part oftbe next quarterly release $Cheduled to roll out by the
         end of July 2010.

         Thank you again for the opportunity to comment on this draft report and we look forward
         to WQricing with you OD other issues as we both strive to improve FEMA.




                           Improving FEMA’s Disaster Purchase Card Program 


                                                      Page 17
 

Appendix C
Disaster Purchase Card Process Diagram



 (      ShIrt )

        -.                                                     Logistics
  > Prepare bulk 4O-!s [Requisition and Conunilrncnl for Services and Supplies] to fund purchue cards for specifIC disasters
  > Route 40-15 10 ProjM Offic<l" and Finance
  > Start disaster purchase card file
                                                                    I
                                                                        FiIlUlla
                                        > Conunit and obligate funds
                                        > Retain copies ofapprovcd 40-18
                                        > Send origutal40-1s to cardholderii and copies 10 Logistics



  >
                                                           •
                                                         Omlholden
      Receive6Q-ls {Requisition for Supplies, Equipment, and/or Services] for purchases and any requiroo waivers
  >   C.'11ock required sources
  >   Vc:rifY items are tax-exempt
  >   Purchase items from vendor
  >   Update Disaster PurclIase Card Log
  >   Insert 60-18 in files with back-up documentation
  >   Reallocatetransaclions in Credit Card Tramaction l\1anagemml System (CCTMS)
  > Send copies of60-1s 10 Re.civing Offi<=s




                                      1>EUVERY                               ~        Ddiver                           PICK UP




                                 Ret:6\;1IC Offiurs                                                       ClITdholden
  >   Receive items                                                                         > Pick up items
  >   Prql8re and sign receiving documents                                                  >   Sign receipt from vendor
  >   Verify with Accoontabk: Property Officer ifilems are aCCOllJl~ble property            >   Deliver items to Receiving Officer
  >   DehvCf items 10 Rt,:l;jucator
  >   Requestor signs receiving documents
  >   Send receiving documenh 10 cardholders and retain copia;


                                                            Qm/ltolder9
  >   File receipts, 6O-1s, and other required documents by Iransaclion
  >   Update Disaster Purchase Card Log
  >   Reconcile Iransaclions U1 CCTh1S
  >   Complete statemmt TeQOI\eiliation and approval within 7 days after the cycle date
  >   Fon',ard rooeipl.s., 6Q.1s. and other required documents to appropriate regional disaster office for filing and retain oopies


                                                                 1
                                                       Appro";n& 0ffl£U,!s
             > Ensure accowlla are reconciled within 14 days of the cycle close dale
             > Ensure lhlIt charges wert allowable and documentalion IS COOlplete
             > As appropnalt, certify cardholder statemmts


Source: OIG analysis of the business process for the FEMA disaster purchase card program.




                                     Improving FEMA’s Disaster Purchase Card Program

                                                                   Page 18
Appendix D
FEMA Regional Offices




                     FEMA REGION                          NUMBER OF CARDHOLDERS
                            I                                        10–20
                            II                                       10–20
                           III                                        >20
                           IV                                         >20
                            V                                         <10
                           VI                                         >20
                           VII                                        <10
                           VIII                                      10–20
                           IX                                         >20
                            X                                        10–20


Source: FEMA.




                   Improving FEMA’s Disaster Purchase Card Program

                                       Page 19
Appendix E
Case Studies

               The “Happy Birthday” Gift Cards
               A cardholder purchased two “Happy Birthday” gift cards totaling $4,318.
               Each card was for $2,159, and they were bought within minutes of each
               other using funds for Hurricane Ike disaster relief operations in Texas.
               According to FEMA, the store charged two gift cards, using the
               cardholder’s purchase card and then cashed these two gift cards to pay for
               120 cases of copy paper at a total cost of $4,318.80. The cardholder states
               that he never received the gift cards and has no explanation for this. The
               receipts in the cardholder’s file for these transactions show that the
               purchase was for two “Happy Birthday” gift cards. The cardholder was
               able to provide copies of the FEMA request form for the paper, as well as
               copies of the order forms used by the store to order and have delivered the
               paper. FEMA has been unable to provide any receiving documents.

               Personal Convenience Items – Ceramic Heaters
               FEMA officials requested 40 portable ceramic heaters for staff at a
               regional office. These heaters were to be bought using funds that had been
               allocated for disaster relief efforts in Oklahoma. The cardholder
               purchased 19 heaters from an online retailer for about $1,098. DHS
               prohibits cardholders from purchasing personal convenience items such as
               heaters. According to the FEMA Emergency Acquisition Field Guide,
               cardholders are not to buy items for their personal use or purchase items
               unrelated to the mission of their office. The cardholder should have
               rejected the purchase request and, if necessary, requested assistance from
               her AO and the FEMA Organization Program Coordinator.

               The Golf Umbrellas
               FEMA officials requested 360 golf umbrellas for Hurricane Ike disaster
               relief operations in Texas. The requisition was given to two cardholders
               who intentionally split the $9,000 purchase in order to stay below their
               $3,000 single purchase limits. Both cardholders purchased the umbrellas
               from a California-based company that normally sells computer and
               imaging supplies. This resulted in taxpayers paying $25 for each
               umbrella, although similar ones were available via GSA for half the cost.
               At least 60 of the purchased umbrellas were never used. According to
               FEMA policy, all purchase requests greater than $3,000 must be
               forwarded to warranted contract specialists. Neither cardholder was a
               warranted contract specialist.




                       Improving FEMA’s Disaster Purchase Card Program 


                                           Page 20 

Appendix F
Major Contributors to This Report

                   Donald Bumgardner, Director
                   Trudi Powell, Audit Manager
                   John Woo, Auditor-in-Charge
                   Polin Cohanne, Senior Program Analyst
                   Puja Patel, Program Analyst
                   Scott Wrightson, Forensics Specialist




                    Improving FEMA’s Disaster Purchase Card Program 


                                        Page 21 

Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      FEMA Audit Liaison (09-175-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Improving FEMA’s Disaster Purchase Card Program 


                                          Page 22
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
